No.
In the

SUPREME COURT OF THE
UNITED STATES

supreme dourt, u.S
filed

SEP 0 8 2021
OFFICE OF THE n Pov

ANTHONY ITALO PROVITOLA,
KATHLEEN A. PROVITOLA,
Petitioners, pro se,
v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
Anthony I. Provitola, j?ro se
Kathleen A. Provitlola, pro se
Post Office Box 2855
DeLand, FL 32721-2855
(386) 734-5502

i
QUESTION PRESENTED
Whether the United States Circuit Courts of
Appeal have the power to override federal statutory
appellate rules with their decision to render
unappealable a lower court’s erroneous denial of a
motion for summary judgment in an appeal from final
judgment?

i

ii
PARTIES TO THE PROCEEDINGS
i

:

The Petitioners were pro se before the Eleventh
Circuit, and were the Petitioners and the Appellants
below.
The Respondent is the Commissioner of Internal
Revenue.

*

I

I

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court,
the Petitioners are private individuals who are husband
and wife, and there is no non-governmental corporation
that is a party.

i
i

IV

TABLE OF CONTENTS
QUESTION PRESENTED.

i

PARTIES TO THE PROCEEDINGS

ii

CORPORATE DISCLOSURE STATEMENT

in

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

2

JURISDICTION

3

STATUTORY PROVISIONS INVOLVED.

3

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

10

I. The United States Circuit Courts of Appeal do not
have the power under Article in of the United States
Constitution to override federal statutory rules
governing their conduct by their decision to render
unappealable the lower courts’ erroneous denials of
10
motions for summary judgment

V

II. The Eleventh Circuit erred in affirmingthe Judgment
of the Tax Court’s denials of the Petitioners’ motion for
summary judgment where the Tax Court failed to apply
the standard of this Court to Respondent’s failure over
a two year period to make a showing sufficient to
establish the existence of an element essential to the
13
Respondent’s case
CONCLUSION.

14

APPENDIX

15

Appendix A
Opinion of the United States Court of Appeals
for the Eleventh Circuit, Provitola v.
Commissioner, No. 20-12615
(June 11,2018) Pet.App.l............................. 15
Appendix B
Order of the United States Tax Court,
Provitola v. Commissioner No. 12357-16
(Nov. 7, 2017) Pet.App.13............................. 27
Appendix C
Fed. R. Civ. P. 56 Pet.App.15

29

Appendix D
26 U.S.C. § 162 Pet.App.16

30

t

vi
THIS PAGE INTENTIONALLY BLANK

j

Vll

TABLE OF AUTHORITIES
Cases
Celotex Corporation v. Catrett,
477 U.S. 317 (1986).........

16

Lament v. Commissioner ofInternal Revenue,
339 F.2d 377 (2nd Cir. 1964).....................

10

Lind v. United Parcel Service, Incorrporated,
254 F.3d 1281 (11th Cir. 2001) .................

10

Statutes
28U.S.C. §1331...

2

28U.S.C. §1338...

2,8

26 U.S.C. § 7482(a)

2

28 U.S.C. §1254(1).

2

Rules
U. S. Tax Court Rule 121(d) .

13

U. S. Tax Court Rule 142(a)(1)

13

Fed.R.Civ.P. 56......................

13

1
PETITION FOR A WRIT OF CERTIORARI
Although the Tax Court recognized the proper
standard for a deduction under Section 162 to be a good
faith intention to profit from the business, and although
the Tax Court ultimately applied that standard, the Tax
Court failed to apply its Rule 121(d) in deciding the
Petitioners’ motion for summary judgment with the
standard of this Court announced in Celotex
Corporation v. Catrett, 477 U.S. 317 (1986):
(a) The plain language of Rule 56(c)
mandates the entry of summary judgment,
after adequate time for discovery and
upon motion, against a party who fails to
make a showing sufficient to establish the
existence of an element essential to that
party's case, and on which that party will
bear the burden of proof at trial. In such a
situation, there can be "no genuine issue
as to any material fact," since a complete
failure of proof concerning an essential
element of the nonmoving party's case
necessarily renders all other facts
immaterial. The moving party is "entitled
to a judgment as a matter of law" because
the nonmoving party has failed to make a
sufficient showingon an essential element
of its case with respect to which it has the
burden of proof. Pp. 322-323.
Moreover, Certiorari is plainlywarranted in order

2
to correct the clear error of the Eleventh Circuit in
following the rule prevalent among the courts of appeal
holding denials of motions for summary judgment to be
unappealable if a case has been tried and judgment
entered. The courts of appeal are creatures of the
Congress under Article I of the United States
Constitution and are thereby bound by the procedural
rules promulgated by the Congress.
Congress authorized the Supreme Court to
prescribe rules for the lower federal courts not
inconsistent with the Constitution and statutes. Their
operation being restricted, in conformity with the
proviso attached to the congressional authorization, to
matters of pleading and practice, and judicially
promulgated must neither affect the substantive rights
of litigants nor alter the jurisdiction of federal courts and
the venue of actions therein.
(References to “Pet App._” are to the Appendix
bound together with this Petition, which begins with
page 29 of the Petition by “Pet.App.l" as the first page of
Appendix documents.
OPINIONS BELOW
The Eleventh Circuit’s opinion is reproduced at
Pet.App.1-2. The Tax Court’s initial order denying the
Petitioners’ motion for summary judgment is reproduced
at Pet App.25-29.

i

3

JURISDICTION
The United States Tax Court had jurisdiction
over federal income tax litigation under 28 U.S.C. §§
1331 and 1338. The Eleventh Circuit had jurisdiction
under 26 U.S.C. § 7482(a). The Eleventh Circuit filed its
decision on June 11,2021. The United States Supreme
Court has jurisdiction under 28 U.S.C. § 1254(1) to
review the Eleventh Circuit’s decision on a writ of
certiorari.

STATUTORY PROVISIONS INVOLVED
The relevant provisions of the Internal Revenue
Code, 26 U.S.C. §§ 162(a), are reproduced at Pet.App.3132. Pertinent provisions of the Federal Rules of Civil
Procedure
(Title 28 of the United States Code) are reproduced at
PetApp.33.
(References to “Pet.App._” are to the Petition
Appendix bound together with this Petition, which
begins on page 2§ of the Petition with “PetApp.l” on
Page 29 as the first page of Petition Appendix
documents.
STATEMENT OF THE CASE
In the decision to which certiorari is here sought
the Eleventh Circuit acknowledged that the relevant
facts were largely undisputed.

7

In separate notices of deficiency dated December
31, 2013, and December 31, 2014, the IRS disallowed
deductions claimed by the Petitioners for expenses for
professional services reported on the schedule C for
Viovison Ventures, LLC (“Viovision”) of the Petitioners’
Forms 1040 for 2013 and 2014, because, in its view, the
Petitioners did not establish that the business expenses
were paid or incurred during the taxable year or that
they were ordinary or necessary. The notices
determined income-tax deficiencies of $7,818 (2013) and
$11,328 (2014) and imposed accuracy-related penalties
of $1,536.60 (2013) and $2,265.60 (2014). See 26 U.S.C. §
6662.
*

The Petitioners timely petitioned the Tax Court
for review of the 2013 and 2014 notices of deficiency on
May 20, 2016, and July 31, 2017, respectively. The
Petitioners thereafter timely filed their motions for
summary judgment supported by declarations in both
tax cases on the issues raised by the notices of
deficiency.
The business in which the Petitioner, Kathleen A.
Provitola engaged is actually comprised of two
businesses: mass production manufacturing and, to a
lesser extent, marketing. The manufacturing business
that was established was for the mass production
manufacture of the visual system after the start-up
phase, including the organization of Viovison Ventures,
LLC by the Petitioner, Kathleen A. Provitola, which was
completed in 2007. Viovision Ventures, LLC, with the
assistance of the law firm of Anthony I. Provitola, P. A.,
created and actually utilized the production system and

8

supply chains for that purpose.
The actions taken by the Petitioners as reported
in the declarations testified to the professional services
provided to Viovision, and thus demonstrated the
intention of Viovision to mass produce by manufacture
a patented device for the enhancement of visual
perception of two-dimensional images (“visual system”).
The Respondent did not respond to the motion as
required by U. S. Tax Court Rule 121(d), but merely filed
an affidavit that only repeated the record (wherein
counsel for the Respondent confessed to having no
knowledge of fact other than to formal matters of
record), a memorandum of law discussing Section 162;
and, in a notice of objection, a plea for more time in
which to take depositions of the Petitioners and present
evidence by cross-examination. The Tax Court, allowing
no evidentiary effect to the Petitioners’ declarations,
denied the motions, citingthe need for more evidentiary
development. The factual issues, according to the
November 7, 2017 order denying summary judgment,
included “whether petitioners engaged in the Schedule
C activity with an actual and honest profit motive” and
“whether the legal and professional services fees paid by
petitioners were ordinary and necessary expenses ”
Over the next two years prior to trial the Respondent did
not present any evidence in opposition to the motions for
summary judgement, by way of depositions as promised
or otherwise, although the Petitioners twice renewed
their motion for summary judgment once after the cases
were consolidated in 2018 and immediately before trial
in 2019; but the Tax Court again denied themotion.

9
The ease thus proceeded to a scheduled trial in
the Tax Court where it was decided on an issue which
had not been previously been raised in the pleadings,
and therefore one for which the Commissioner had the
burden of proof: that the Petitioners’ claimed deduction
was for “startup” expenses. This assertion was
extraneous to the issue to which the case was confined
by the ruling of Judge Marvel on the Petitioners’ motion
for summary judgment establishing the law of the case.
Nevertheless, the Tax Court Judge presiding thereupon
held, citing McKelvey v. Commissioner, T. C. Memo
2002-63, 83 T.C.M. (CCH) 1339,1341, at Pages 12-15 of
Pages 151-155 of the Transcript of Record, under the
heading “III. Startup Expenses”, as follows:
“. . . To the extent the Commissioner’s
start-up expenditures argument is a new
matter, he would bear the burden of proof.
Rule 142(a)(1). .
The Eleventh Circuit held in its affirmance of
the Tax Court as follows:
The denials of the Provitolas’
pretrial summary-judgment motions are
not renewable on appeal. In Lind vJI
United Parcel Service, Inc., we held that
“the denial of summary judgment is not
renewable on appeal after a full trial and
final judgment on the merits.” 254 F.3d
1281, 1284-86 (11th Cir. 2001). Because
the Tax Court entered judgment on the
merits after a full trial, we “will not review

10
the pretrial denial of a motion for
summary judgment.” Id. The Provitolas’
argument that this rule applies only to
jury trials is not persuasive because Lind
itself applied that rule in an appeal arising
from a bench trial. See id. at 1283.
Lind was not a Tax Court case, but a district court case
in which the parties opted for a bench trial.

REASONS FOR GRANTING THE PETITION
I. The Eleventh Circuit’s Decision affirmingthe decision
of the Tax Court conflicts with the standard announced
by this Court regarding the failure of the Tax Court to
grant the Petitioners’ motion for summary judgment.

U. S. Tax Court Rule 121(d) states:
. . When a motion for summary
judgment is made and supported as
provided in this Rule, an adverse party
may not rest upon the mere allegations or
denials of such party’s pleading, but such
party’s response, by affidavits or
declarations or as otherwise provided in
this Rule, must set forth specific facts
showingthat there is a genuine dispute for
trial. If the adverse party does not so
respond, then a decision, if appropriate,
may be entered against such party.”
This rule largely follows the text of and is obviously

11
comparable with Rule 56 of the Federal Rules of Civil
Procedure that announces the same standard, the clarity
of which is emphasized in Celotex Corporation v.
Catrett, 477 U.S. 317 (1986).
The Eleventh Circuit’s position is inconsistent with
the standard for summary judgment set forth in Rule
56(c), announced by this Court in Celotex, which
provides that summary judgment is proper "if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a judgment
as a matter of law." Pp. 322-326:
(a) The plain language of Rule 56(c)
mandates the entry of summary judgment ,
after adequate time for discovery and
upon motion, against a party who fails to
make a showing sufficient to establish the
existence of an element essential to that
party's case, and on which that party will
bear the burden of proof at trial. In such a
situation, there can be "no genuine issue
as to any material fact," since a complete
failure of proof concerning an essential
element of the nonmoving party's case
necessarily renders all other facts
immaterial. The moving party is "entitled
to a judgment as a matter of law" because
the nonmoving party has failed to make a
sufficient showing on an essential element
of its case with respect to which it has the

12
burden of proof. Pp. 322-323.
It is clear that the Tax Court departed from the
requirements of this Rule given the failure of the
Commissioner to fulfill the promise of deposing the
Petitioners upon which the denial of the Petitioners’
motions were based.
From Judge Marvel's Order the main condition for
the Section 162 deduction is that the business is carried
on with an honest intention to make a profit. This ruling
follows the interpretation in Lamont v. Commissioner
ofInternal Revenue, 339 F.2d377 (2nd Cir. 1964):
“While the expectation of profit
need not be a reasonable one, and the
business need not realize an immediate
profit, the activities must be entered into
and carried on in good faith for the
purpose of making a profit. Hirsch v.
Commissioner, supra; Doggett v. Burnet,
62 App.D.C. 103,65 F.2d 191 (1933).”
Judge Marvel’s ruling on the initial presentation
of the Petitioners’ motions for summary judgment was
made in favor of the Commissioner upon the
representation of counsel for the Commissioner that the
opportunity for cross-examination of Petitioners would
provide evidence of the lack of such intention in the face
of all of the Petitioners’ evidence. No such evidence was
ever presented by the Commissioner in the trial or
during the two years since that ruling. Therefore, the
Tax Court Judges should have granted the Petitioners’

13
motions for summary judgment when raised in all
instances, and the Petitioners’ motion should have been
the end of the case in favor of the Petitioners.
n. The Eleventh Circuit erred in affirmingthe Judgment
of the Tax Court’s denials of the Petitioners’ motion for
summary judgment where the Tax Court failed to apply
the standard of this Court to Respondent’s failure over
a two year period to make a showing sufficient to
establish the existence of an element essential to the
Respondent’s case.
To permit such a rulingby the Tax Court to stand
under the cover and behind the administrative
preference discussed mLind is to violate the provisions
of the United States Constitution requiring due process
of law and equal protection of the laws, especially where
the Petitioners had no choice for a jury trial as in Lind,
and were forced by the Internal Revenue Code to apply
for relief to what appears to be one of the agencies of the
IRS, the Tax Court. Thus it appears that this fact calls
into operation the fourteenth amendment of the United
States Constitution requiring equal protection of the
laws, as in other cases where the constitutional violator
is an agency of the federal government. The equal
protection sought by the Petitioners is the nondiscriminatory application of the right to appeal that
broadly encompasses all appeals, and does not operate
with judicial doctrine against the moving party in
summary judgment proceedings.

14
CONCLUSION
This Court should reverse the decision of the Tax
Court in these cases and enter a decision in favor of the
Petitioners that the expenses at issue for the years 2013
and 2014 are deductible under Internal Revenue Code
Section 162 in accordance with the Petitioners’ motion
for summary judgment for those years and not start-up
expenses that must be amortized.
Respectfully submitted,
/s/ Anthony I. Provitola
Anthony I. Provitola
Petitioner, pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 734-5502
Email: aprovitola@cfl.rr.com
/s/Kathleen A. Provitola.
Kathleen A. Provitola
Petitioner, pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 736-0809

